                                                       NAtIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         . OFFICE OF INVESTIGATIONS

                                               CLOSEOU:r MEMORANDUM

                                                            \ ... -
 Case Number: 108120056                                                                         Page 1 ofl



         This investigation Was initiated to reSolve arefusalby an NSF staff member 1 to provide infonnation
         to OIG investigators relevant to an active investigation? The staff member claimed attorney-client
         privilege and shortly thereafter procedures were implemented which would have interfered with OIG
         access to NSF staff.

         An opinion on the matter was requestedfromD6J~sOffice of Legal Counsel. OLC's response
       , pointed out that both the IG Act as well as NSF's IG Access Policy fail to limit or restrict OIG access
         to confidential advice and other materials.. Shortly thereafter the ·staff member met OIG to provide
         infonnation they had concerning the matter.

         Subsequently, NSF's Director issued 00-09-022 Cooperating with the Office of Inspector General3
         which reinforced existing NSF~s policies4 requiring employees to cooperate with OIG. Thereafter
         the earlier implemented procedures were rescinded.


                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
